No. 19A224
IN THE SUPREME COURT OF THE UNITED STATES

JON ERIC SHAFFER,
Applicant,

v.
COMMONWEALTH OF PENNSYLVANIA,
Respondent.

PROOF OF SERVICE

I, Amir H. Ali, hereby certify that I am a member of the Bar of this Court, and
that I have this 30th day of September, 2019, caused the accompanying Application
for an Extension of Time Within Which to File a Petition for a Writ of Certiorari to
be served via first-class mail postage pre-paid and an electronic version of the
document to be transmitted via electronic mail to:

Patricia Jo McLean, First Assistant District Attorney

Butler County District Attorney’s Office

P.O. Box 1208

Butler, PA 16003-1208

Telephone: (724) 284-5443
pmclean@co.butler.pa.us

September 30, 2019 Amir H. Ali

Counsel of Record
